                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: A12100071                                                                         Page 1 of 1



                 A program officer 1 at NSF under the Intergovernmental Personal Act (IP A) allegedly violated
         the conflict of interests (COl) rules by suggesting that a PI2 on an award3 he recommended for
         funding contact someone at his new home institution4 for advice on revising the proposed budget.
         The program officer was originally at NSF on assignment from a different institution, 5 which was
         terminating his contract. At the time he made the suggestion to the PI, he was in the process ofbeing
         hired by his new home institution located near the PI's institution, thereby creating the appearance of
         a COL The program officer in his short time at NSF demonstrated a failure to understand the COl
         rules, and NSF consequently decided to terminate his IP A assignment before the end ofthe first year.
         Thus, NSF has taken steps to protect its funding decision-making process and no further
         consideration of this allegation is warranted.

                   Accordingly, this case is closed.




NSF OIG Form 2 (11102)
